 OFFICE OF AUDIT
 REGION 5
 CHICAGO, IL




            Stark Metropolitan Housing Authority,
                        Canton, OH

    Public Housing Capital Fund Stimulus (formula)
                 Recovery Act Grant




2012-CH-1011
   [Type text]                              SEPTEMBER 27, 2012
                                                        Issue Date: September 27, 2012

                                                        Audit Report Number: 2012-CH-1011




TO:    Shawn Sweet, Director of Public Housing Hub, 5DPH

      //signed//
FROM: Kelly Anderson, Regional Inspector General for Audit, 5AGA


SUBJECT: The Stark Metropolitan Housing Authority, Canton, OH, Did Not Always
         Administer Its Grant in Accordance With Recovery Act, HUD’s, and Its Own
         Requirements

    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final audit report of our audit of the Stark Metropolitan Housing
Authority’s Public Housing Capital Fund Stimulus (formula) Recovery Act.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
(312) 353-7832.
                                             September 27, 2012
                                             The Stark Metropolitan Housing Authority, Canton, OH,
                                             Did Not Always Administer Its Grant in Accordance
                                             With Recovery Act, HUD’s, or Its Own Requirements



Highlights
Audit Report 2012-CH-1011


 What We Audited and Why                      What We Found

We audited the Stark Metropolitan            The Authority did not always ensure that its
Housing Authority’s American                 contractors complied with the Davis-Bacon Act and
Recovery and Reinvestment Act Public         Federal labor standards. For one contractor, the
Housing Capital Fund stimulus formula        Authority did not (1) conduct a sufficient number of
grant as part of the activities in our       interviews with seven subcontractors’ employees to
fiscal year 2012 annual audit plan. We       ensure that proper wages were received, (2) investigate
selected the Authority based upon risk       complaints of alleged violations of Federal labor
factors related to the housing agencies      standards for two subcontractors, or (3) obtain
in Region 5’s1 jurisdiction. Our             sufficient documentation from seven subcontractors to
objective was to determine whether the       determine whether their employees were paid the
Authority administered its grant in          appropriate prevailing wage rates in accordance with
accordance with Recovery Act, the U.S.       the Davis-Bacon Act.
Department of Housing and Urban
Development’s (HUD), and its own        The Authority did not always comply with Recovery
requirements.                           Act, HUD’s, or its own procurement procedures.
                                        Specifically, it (1) purchased one range and one
  What We Recommend                     refrigerator to replace appliances that had remaining
                                        useful life, (2) did not perform a cost analysis before
                                        soliciting bids for the purchase and installation of
We recommend that HUD require the       video surveillance equipment, and (3) did not ensure
Authority to (1) support that employees that proper procurement procedures were followed for
were paid proper Davis-Bacon wages or the purchase and installation of 119 furnaces. Further,
reimburse underpaid employees $6,820 the Authority did not always ensure that it complied
from non-Federal funds, (2) reimburse with HUD’s and Recovery Act reporting requirements.
HUD $680 from non-Federal funds for Specifically, it did not accurately report in
transmission to the U.S. Treasury for   FederalReporting.gov the number of jobs created and
the appliances that were improperly     retained.
replaced, and (3) implement adequate
procedures and controls to address the  As a result, HUD and the Authority lacked assurance
findings cited in this audit report.    that Recovery Act funds were used appropriately, the
                                        public did not have access to accurate information
                                        regarding the number of jobs created and retained, and
                                        the Authority’s use of the formula grant was not
1
                                        transparent.
 Region 5 includes the States of Illinois,
Indiana, Michigan, Minnesota, Ohio, and
Wisconsin.
                            TABLE OF CONTENTS

Background and Objective                                                             3

Results of Audit

      Finding 1: The Authority Did Not Always Ensure That Its Contractors Complied
                 With the Davis-Bacon Act and Federal Labor Standards                4
      Finding 2: The Authority Did Not Always Ensure That It Complied With
                 Recovery Act, HUD’s, or Its Own Procurement Procedures              7
      Finding 3: The Authority Did Not Always Ensure That It Complied With HUD’s
                 and Recovery Act Reporting Requirements                         10

Scope and Methodology                                                                12

Internal Controls                                                                    14

Appendixes
A.    Schedule of Questioned Costs and Funds To Be Put to Better Use                 16
B.    Auditee Comments and OIG’s Evaluation                                          17
C.    Federal and Authority’s Requirements                                           23




                                            2
                      BACKGROUND AND OBJECTIVE

The Canton Metropolitan Housing Authority was created in 1939 in accordance with the
provisions of the Ohio Revised Code to help fill the need for decent, safe, sanitary, and
affordable housing in Stark County, OH. Its name was changed to the Stark Metropolitan
Housing Authority in 1970. It is a public nonprofit organization, chartered by the State of Ohio,
funded in part through the U.S. Department of Housing and Urban Development (HUD). It
operates 2,546 public housing units, 1,492 Section 8 housing units, and 156 special program
units.

A five-member board of commissioners oversees the Authority. These members are appointed
to a 5-year term and are not compensated for their services. The mayor of Canton, OH, the
largest city in Stark County, appoints two members. The Stark County commissioners, the Stark
County Court of Common Pleas, and the Stark County Court of Common Pleas Probate Division
each appoint one member.

The Public Housing Capital Fund Stimulus Recovery Act-funded grant is administered by
HUD’s Office of Public Housing. The grant funds are available for capital and management
activities, including the development, financing, and modernization of public housing projects.

On February 17, 2009, the President signed the American Recovery and Reinvestment Act. The
Recovery Act provided an additional $4 billion to public housing agencies to carry out capital
and management activities, including the modernization and development of public housing.
The Recovery Act required that $3 billion of these funds be distributed as formula grants and the
remaining $1 billion be distributed through a competitive process. In March of 2009, the
Authority received a formula grant of more than $5.285 million.

Our objective was to determine whether the Authority effectively administered its grant in
accordance with Recovery Act, HUD’s, and its own requirements. Specifically, we wanted to
determine whether the Authority (1) properly obligated and expended its Recovery Act grant
funds, (2) followed Recovery Act requirements when procuring contracts for goods and services,
and (3) accurately reported its Recovery Act activities. The audit was conducted as part of the
Office of Inspector General’s (OIG) commitment to ensure the proper use of Recovery Act
funds.




                                                3
                                RESULTS OF AUDIT


Finding 1: The Authority Did Not Always Ensure Its Contractors
Complied With the Davis-Bacon Act and Federal Labor Standards
The Authority did not always ensure its contractors complied with the Davis-Bacon Act and
Federal labor standards. For one of its three contractors, the Authority did not (1) conduct a
sufficient number of interviews with seven subcontractors’ employees to ensure that proper
wages were received, (2) investigate complaints of alleged violations of Federal labor standards
for two subcontractors, or (3) obtain sufficient documentation from the seven subcontractors to
determine whether their employees were paid the appropriate prevailing wage rates in
accordance with the Davis-Bacon Act. This condition occurred because the Authority did not
effectively monitor its contractors in the enforcement of Federal labor standards. As a result,
HUD and the Authority lacked assurance that the Authority complied with the Davis-Bacon Act,
and its contractor underpaid employees more than $7,000 in wages.



 The Authority Did Not Conduct a
 Sufficient Number of Interviews


              The Authority did not conduct a sufficient number of interviews with
              subcontractors’ employees to ensure that proper wages were received. One
              contractor used seven subcontractors, which collectively employed 74 employees,
              to work on a Recovery Act-funded project. Twenty-four of the employees (33
              percent) were interviewed. Of the 24 employees interviewed, (1) 6 employees (25
              percent) stated that they were not paid for all hours worked, (2) 17 employees (71
              percent) stated that they were not paid at least time and a half for all hours worked
              in excess of 40 hours per week, and (3) 6 employees (25 percent) stated that they
              had been threatened or coerced into giving up a part of their pay. According to
              HUD’s guidelines, Making Davis-Bacon Work, HUD does not require that 100
              percent of employees are interviewed to meet Davis-Bacon standards. However,
              agencies are encouraged to focus interviews on projects or workers when
              violations are suspected or alleged. Due to the responses received from the
              employees interviewed, the Authority should have interviewed all of the
              employees who worked under this contract to ensure that they received the
              appropriate Davis-Bacon wages.

 The Authority Did Not
 Investigate Alleged Violations
 of Federal Labor Standards


                                                4
            The Authority did not investigate complaints of alleged violations of Federal
            labor standards. Investigations should have been performed on behalf of the
            employees who stated that they were not paid for all of their hours worked, were
            not paid at least time and a half for all hours worked in excess of 40 hours per
            week, and were threatened or coerced into giving up a part of their pay.

The Authority Did Not Obtain
Sufficient Payroll
Documentation

            The Authority did not obtain sufficient payroll documentation to support that the
            subcontractors’ employees were paid appropriate Davis-Bacon wages. One
            subcontractor did not provide documentation to support that 11 of its employees
            received fringe benefits. Therefore, their rate of pay did not comply with the
            Davis-Bacon Act and resulted in $4,779 in underpayments. Additionally,
            according to the certified payroll reports, seven employees worked a total of 41.25
            overtime hours and were paid their normal rate of pay instead of one and a half
            times their rate of basic pay as required under Davis-Bacon. The seven
            employees were underpaid $537. Also, the subcontractor classified one
            employee’s job title differently in his interview than was documented on the
            contractor’s certified payroll report. If the employee was correct in his interview
            regarding his classification, a total of $83 was underpaid to the employee.
            Another subcontractor had one employee who stated that he was paid $9 per hour
            with no fringe benefits. However, the proper Davis-Bacon wage for labor
            including fringe benefits was $15.80. If the employee was paid as stated in his
            interview, the underpayment was $1,958.

The Authority Did Not
Effectively Monitor Its
Contractors

            The Authority did not always adequately monitor its contractors to ensure
            compliance with the Davis-Bacon Act and Federal labor standards. Its contract
            specialist stated that she did not follow up on employees receiving pay rates
            below Davis-Bacon wages or not paid time and a half because she overlooked this
            issue during her review of the payroll reports. She stated that she did not notice
            that the employee had stated that his job classification was different from the
            information reported on the certified payroll report. She further stated that if she
            had noticed, she or another Authority employee would have observed the work of
            the employee to determine the proper job classification and informed the
            contractor of the misclassification and underpayment.

            The Authority’s contract specialist stated that she did not notice that interviewed
            employees stated that they had not been paid for all hours worked or paid time
            and a half for hours worked in excess of 40 hours per week or had been threatened
                                             5
             or coerced into giving up a part of their pay due to the department’s having been
             understaffed at the time. She added that if she had noticed, she would have
             performed follow-up interviews with those employees. However as previously
             mentioned, of the 24 employees interviewed, six (25 percent) stated that they
             were not paid for all hours worked, 17 (71 percent) stated that they were not paid
             time and a half for hours worked in excess of 40 hours per week, and six (25
             percent) stated they were threatened or coerced into giving up a part of their pay.
             Therefore, with a least 70 percent (17 out of 24) of the employees interviewed
             mentioning that they were not paid correctly; it would have been difficult not to
             notice. Further, the contract specialist did not perform any follow-up interviews
             with the employees.

Conclusion

             The Authority did not always adequately monitor its contractors to ensure
             compliance with the Davis-Bacon Act and Federal labor standards. As a result,
             HUD and the Authority lacked assurance that the Authority complied with the
             Davis-Bacon Act, and its contractor underpaid employees more than $7,000.

Recommendations

             We recommend that the Director of HUD’s Cleveland Office of Public Housing
             require the Authority to

             1A. Obtain documentation to support that employees were paid in accordance
                 with the Davis-Bacon Act, or reimburse the employees $6,820 from non-
                 Federal funds for the unsupported wages cited in this report.

             1B. Pursue collections from the subcontractor and provide support for corrective
                 payments made to its employee or reimburse the contractor’s employee
                 $537 from non-Federal funds.

             1C. Ensure that its quality control procedures are followed to make certain that it
                 adequately monitors its contractors for compliance with Federal labor
                 standards. These quality control procedures should include but not be
                 limited to obtaining sufficient payroll documentation, reviewing employee
                 interviews, ensuring employees: are paid for all hours worked; are paid time
                 and a half for hours worked in excess of 40 hours per week; and are not
                 threatened or coerced into giving up their pay.




                                              6
Finding 2: The Authority Did Not Always Ensure That It Complied
With Recovery Act, HUD’s, or Its Own Procurement Procedures
The Authority did not always ensure that it complied with Recovery Act, HUD’s, or its own
procurement procedures. Specifically, it (1) purchased one range and one refrigerator to replace
appliances that had remaining useful life, (2) did not perform a cost analysis before soliciting
bids for the purchase and installation of video surveillance equipment, and (3) did not ensure that
proper procurement procedures were followed in the purchase and installation of 119 furnaces.
This condition occurred because the Authority lacked adequate oversight and supervision of its
procurements. As a result, HUD and the Authority lacked assurance that (1) nearly $700 in
Recovery Act funds was not expended to replace appliances that had useful life, and (2) the cost
for the purchase and installation of video surveillance equipment was reasonable at the time of
procurement, and (3) proper procurement procedures were followed for the purchase and
installation of 119 furnaces.


 The Authority Replaced
 Appliances That Had Useful
 Life

               We reviewed the Authority’s expenditure of Recovery Act grant funds for its
               seven contracts. We determined that the Authority purchased one range and one
               refrigerator to replace appliances that were less than 8 years old and still had
               useful life. According to HUD’s Public and Indian Housing Notice, PIH-2009-
               16, with proper preventative maintenance and routine repairs of minor
               components, refrigerators can be expected to perform from 6 to 10 years. The
               National Association of Home Builders estimates the life spans of electric ranges
               and refrigerators to be 14 to 17 years. Using HUD’s and the National Association
               of Home Builders’ estimates, we determined that a reasonable estimate for the life
               span of refrigerators and ranges was 8 years. The Authority purchased one range
               for $282, which replaced a range that was 2 years and 77 days old, and one
               refrigerator for $398, which replaced a refrigerator that was 3 years and 117 days
               old. According to the Authority’s purchasing agent, these two appliances were
               moved to the Authority’s maintenance shop to be kept as spares. As a result, the
               Authority improperly used $680 in Recovery Act funds to replace one range and
               one refrigerator that still had useful life.

 The Authority Did Not Obtain
 or Prepare a Cost Analysis


               The Authority did not follow HUD’s or its own requirements when it did not
               obtain or prepare a cost analysis before soliciting bids to purchase and install
               video surveillance equipment for its Washington Rehab renovation project. The
                                                 7
            Authority advertised for contractors and received one bid, and the contract was
            awarded to that bidder. Federal procurement policy states that a cost analysis will
            be necessary when adequate price competition is lacking, unless price
            reasonableness can be established based on market price.

            We performed our own cost reasonableness analysis of this procurement and
            determined that the costs were reasonable.

The Authority Did Not
Ensure That Proper
Procurement Procedures
Were Followed

            The Authority did not ensure that proper procurement procedures were followed
            for the purchase and installation of 119 furnaces for its Washington Rehab
            renovation project. The Authority procured the furnaces through a cooperative
            purchasing program. It entered into a memorandum of understanding with the
            nonprofit organization Stark County Community Action Agency on April 10,
            2010. The memorandum stated that the Authority would pay 70 percent of the
            cost and the Agency would pay 30 percent of the cost. The Authority’s
            procurement procedures stated that the Authority should maintain records
            sufficient to detail the significant history of its procurements. This guidance
            included but was not limited to information pertaining to the rationale for the
            method of procurement, the selection of contract type, the contractor selection or
            rejection, and the basis for the cost or price. However, the Authority was unable
            to provide documentation to support the selection of the contract type, contractor
            selection, or rejections. The Agency selected the supplier for the purchase and
            installation of the furnaces. The Authority did not ensure that the Agency
            properly followed Federal and its own bidding procedures in selecting the
            supplier.

The Authority Lacked Adequate
Oversight and Supervision of Its
Procurements

            The Authority did not ensure that it complied with Recovery Act, HUD’s, or its
            own procurement procedures. The Authority’s executive director stated the one
            range and one refrigerator replaced with Recovery Act funds that had useful life
            was missed in the processes used by the maintenance and procurement
            departments when obtaining the appliances. Also, the ranges and refrigerators
            were replaced across the board for the Washington Rehab renovation, and the one
            range and one refrigerator were placed into the warehouse to be recycled to
            another unit.



                                             8
             The Authority’s executive director acknowledged that he approved awarding the
             video surveillance contract to the sole bidder and that the Authority should have
             had a cost analysis performed before the purchase and installation of the
             equipment.

             The Authority’s executive director stated that the memorandum of understanding
             was executed with the Agency, which received funding from the U.S. Department
             of Energy under a weatherization initiative. The Authority and the Agency
             agreed on the percentages each party would pay for the project. However, since
             the Agency had its own procurement procedures and the Department of Energy’s
             regulations to follow, the Authority did not believe it was responsible for ensuring
             that the Agency’s selection of the supplier complied with applicable requirements.

Conclusion

             The Authority did not ensure that it complied with Recovery Act, HUD’s, or its
             own procurement procedures. As a result, HUD and the Authority lacked
             assurance that $680 in Recovery Act funds was properly expended and that proper
             procurement procedures were followed.

Recommendations

             We recommend that the Director of HUD’s Cleveland Office of Public Housing
             require the Authority to

             2A. Reimburse $680 to HUD from non-Federal funds for transmission to the
                 U.S. Treasury for the one range and one refrigerator that were improperly
                 replaced.

             2B. Implement adequate procedures and controls to ensure that it complies with
                 its procurement policy as well as Recovery Act and Federal requirements.
                 These procedures and controls should include but not limited to maintaining
                 documentation of the history of its procurements.




                                              9
Finding 3: The Authority Did Not Always Ensure That It Complied
With HUD’s and Recovery Act Reporting Requirements
The Authority did not always ensure that it complied with HUD’s and Recovery Act
Requirements. Specifically, it did not accurately report in FederalReporting.gov the number of
jobs created and retained. This condition occurred because the Authority did not effectively
oversee its contractors to ensure that they provided accurate information. As a result, the public
did not have access to accurate information regarding the number of jobs created and retained,
and the Authority’s use of the formula grant was not transparent.


 The Authority Did Not Accurately
 Report the Number Of Jobs
 Created

               The Authority did not accurately report in Federaleporting.gov the number of jobs
               created and retained using Recovery Act funds. The Recovery Act reports
               submitted by the Authority stated that the total number of jobs created was 10.
               The Authority could not provide documentation to show how it determined three
               of the jobs created. Section 1512(c) of the Recovery Act requires recipients of
               Recovery Act funds to submit quarterly reports. These quarterly reports are
               submitted in FederalReporting.gov and become available to the public on the
               Recovery.gov Web site. Office of Management and Budget (OMB)
               Memorandum 10-08 requires recipients of Recovery Act funds to submit
               estimates of jobs created and jobs retained for each project or activity in their
               recipient reports. The public did not have access to accurate information
               regarding the number of jobs created and retained with formula grant funds. As a
               result, the Authority’s use of formula grant funds was not transparent.

 The Authority Did Not
 Effectively Oversee Its
 Contractors To Ensure
 Accurate Reporting in
 FederalReporting.gov


               The Authority did not effectively oversee its contractors to ensure accurate
               reporting in FederalReporting.gov. According to the executive director, the
               misrepresentation in the number of jobs created was due to contractors’ reports
               not being accurately filled out when submitted to the Authority. Upon review, the
               Authority agreed that the correct number of jobs created and retained was seven.


                                                10
Conclusion

             The Authority did not ensure that it complied with HUD’s and Recovery Act
             requirements. As a result, the public did not have access to accurate information
             regarding the number of jobs created and retained, and the Authority’s use of the
             formula grant was not transparent.

Recommendations

             We recommend that the Director of HUD’s Cleveland Office of Public Housing
             require the Authority to

             3A.   Develop and implement procedures and controls to ensure the accuracy,
                   completeness, and timeliness of the all reports submitted to HUD or other
                   Federal agencies for the Authority’s programs.




                                             11
                         SCOPE AND METHODOLOGY

To accomplish our objectives, we reviewed

               Applicable laws and regulations; HUD program requirements at 2 CFR (Code of
               Federal Regulations) Part 176; 24 CFR Parts 50, 58, 85, 135, and 968; and 29 CFR
               Part 5; HUD Notices PIH-2009-12, PIH-2009-16, PIH-2009-25, PIH-2009-31, PIH-
               2010-25, PIH-2010-44, PIH-2011-4, PIH-2011-12, and PIH-2011-37; HUD
               Handbook 7460.8, REV-2; the Recovery Act; the United States Housing Act of
               1937 as amended; OMB Circular A-87 and Memorandum 10-08; and HUD’s
               Making Davis-Bacon Work guide for public housing agencies as amended.

               The Authority’s annual contributions contract with HUD; accounting records;
               bank statements; 5-year annual plan; contract files; independent auditors’ reports
               on the Authority for fiscal years 2009, 2010, and 2011; computerized databases;
               policies and procedures; board meeting minutes pertinent to the program;
               organizational chart; Line of Credit Control System information; Recovery Act
               reports submitted to FederalReporting.gov; and HUD’s Recovery Act
               Management and Performance System
               HUD’s monitoring reports for the Authority’s Recovery Act funds and projects,
               dated December 1, 2009, and October 10, 2011, and HUD’s files for the
               Authority.

We also interviewed the Authority’s employees and HUD staff.

Finding 1

We reviewed the project files for the Authority’s three contractors (100 percent) to determine
whether the Authority maintained documentation to support that it ensured that its contractors
paid the appropriate prevailing wages.

Finding 2

We reviewed the Authority’s asset management report to determine whether all of the new
appliances were accounted for and appropriately replaced. We reviewed documentation for the
seven contracts (100 percent) the Authority procured to determine whether the projects funded
by the Recovery Act grant were conducted in accordance with HUD’s and the Authority’s
requirements.

Finding 3

We also reviewed the Recovery Act grant progress reported by the Authority through
FederalReporting.gov to determine whether the Authority accurately reported the amount of
funds obligated and expended and the number of jobs created and retained.

                                               12
We performed our onsite audit work at the Authority’s office at 400 East Tuscarawas Street,
Canton, OH, between February 14 and July 26, 2012, and HUD’s Cleveland field office. The
audit covered the period March 1, 2009, through December 31, 2011, but was expanded as
determined necessary.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               13
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                      Effectiveness and efficiency of operations – Policies and procedures that the
                      audited entity has implemented to provide reasonable assurance that a
                      program meets its objectives, while considering cost effectiveness and
                      efficiency.

                      Reliability of financial reporting – Policies and procedures that management
                      has implemented to provide reasonable assurance regarding the reliability of
                      financial reporting and the preparation of financial statements in accordance
                      with generally accepted accounting principles.

                      Compliance with applicable laws and regulations – Policies and procedures
                      that management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

                                                 14
Significant Deficiencies

             Based on our review, we believe that the following items are significant deficiencies:

                    The Authority lacked adequate procedures and controls to ensure compliance
                    with Federal and its own requirements regarding (1) its monitoring of
                    contractors to ensure compliance with the Davis-Bacon Act and Federal
                    labor standards, (2) its purchase of appliances for replacement of
                    appliances that had remaining useful life, (3) failing to have a cost analysis
                    performed before soliciting bids for the purchase and installation of video
                    equipment, (4) ensuring that proper procurement procedures were
                    followed in the purchase and installation of 119 furnaces, and (5) its
                    reporting of the accurate number of jobs reported in FederalReporting.gov
                    (see findings 1, 2, and 3).




                                              15
                                    APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE
                                                                       Funds to be
         Recommendation                             Unsupported
                                 Ineligible 1/                         put to better
             number                                     2/
                                                                              use 3/
                 1A                                    $6,820
                 1B                                                            $537
                 2A                  $680
                 2B
                Total                $680              $6,820                  $537




1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an OIG recommendation is implemented. These amounts include
     reductions in outlays, deobligation of funds, withdrawal of interest, costs not incurred by
     implementing recommended improvements, avoidance of unnecessary expenditures
     noted in preaward reviews, and any other savings that are specifically identified.




                                             16
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation                          Auditee Comments




                         400 East Tuscarawas Street Canton, Ohio 44702-1131
               Phone: (330) 454-8051 Fax: (330) 454-8065 Relay 1-800-750-0750 Web:
                                          www.starkmha.org
              __________________________________________________________________
             September 21, 2012

             Julie Piotrowski
             HUD OIG Auditor
             200 North High Street
             Columbus OH 43215

             Re: Stark MHA Audit Response

             Dear Ms. Piotrowski,

             Thank you again for the opportunity to discuss the three (3) findings resulting from your
             audit of the Stark Metropolitan Housing Authority (SMHA) ARRA stimulus grant Please
             know that we take any and all concerns regarding SMHA’s financing, policies and
             procedures seriously. As a result, SMHA is dedicated to address any and all concerns in a
             timely manner in order to provide the best services to our residents and the community at
             large.

             In line with that dedication, SMHA respectfully submits the following responses regarding
             the Office of Inspector General’s (OIG) findings.

             Finding 1:
             The Authority did not conduct a sufficient number of interviews with seven subcontractors’
             employees to ensure that proper wages were received.
Comment 1
             SMHA disagrees with this finding. The US Department of Housing and Urban
             development prescribes that a random sampling of contractors are interviewed, which
             SMHA did.
             ________________________________________________________________________

                                                            Michael E. Williams, Executive Director
                         Board of Commissioners:            Frank L. Beane, Linda Bell, Daniel Fonte
                                                            Jeffrey S. McDaniels, Marilyn Frazier




                                                   17
Ref to OIG Evaluation                           Auditee Comments

             The Authority did not investigate complaints of alleged violations of Federal labor
             standards for two subcontractors.

             SMHA agrees with this finding. Due to understaffing in the Development Department, the
             SMHA Contracting Officer conducted interviews by mail (see attachment). With enclosed,
             self-addressed stamped envelopes, subcontracted employees completed and returned the
             Record of Employee Interview forms without the opportunity to discuss or clarify issues
             with an SMHA representative. As those forms were not properly processed, the staff person
             responsible for making sure they are reviewed has been disciplined. Prior to the OIG audit,
             SMHA evaluated the Development Department’s workload and understaffing concerns.
Comment 2    Proactively, a Section 3/Compliance Coordinator position was created and filled to
             complete the duties and responsibilities related to Section 3 and assist with contract
             compliance. In addition, a Development Inspector was hired whose responsibilities include
             conducting face to face interviews, and reporting back any irregularities to the Contracting
             Officer and Compliance Coordinator. Issues and concerns related to finding #1 shall be
             managed accordingly for future projects. It should be noted that SMHA did receive a call
             from one employee indicating he was underpaid. He requested certified payrolls and when
             requested to send paystubs and additional information so SMHA could investigate, he
             declined, saying his attorney would be handling it. We also received a formal request from
             a union for wage information (see attached) but did not hear anything back. Any follow up
             with the company in question is not possible because the companies are no longer in
             business.

             The Authority did not obtain sufficient documentation from seven subcontractors to
             determine whether their employees were paid the appropriate prevailing wage rates in
             accordance with the Davis-Bacon Act.

             SMHA disagrees with this finding. We believe this is an assumption on the part of the OIG
Comment 3    as the finding is based on information completed by employees, and was not verified by
             actual payroll stubs or other documentation that would support the finding. Certified
             payrolls (example attached) indicate fringes were paid in cash for the seven employees and
             would therefore not be able to be confirmed.


             ________________________________________________________________________


                                                             Michael E. Williams, Executive Director
                         Board of Commissioners:             Frank L. Beane, Linda Bell, Daniel Fonte
                                                             Jeffrey S. McDaniels, Marilyn Frazier




                                                   18
Ref to OIG Evaluation                            Auditee Comments

             Finding 2:
             The Authority purchased one range and one refrigerator to replace appliances that had
             remaining useful life. As a result, SMHA improperly used $680 in Recovery Act funds to
             replace one range and one refrigerator that still had useful life.

Comment 4    SMHA disagrees with this finding. The purchase of one (1) range and one (1) stove
             followed SMHA’s procurement practice and Capitalization policy. According to SMHA’s
             Capitalization policy, appliances have a 5 year useful life. Additionally, it is SMHA’s
             standard practice to change out unit appliances at the same time throughout an entire
             complex for uniformity and fairness to all Residents. Further, it is SMHA’s standard
             practice that removed appliances with any remaining estimated useful life are restocked for
             immediate use as needed at other locations.

             The Authority did not perform a cost analysis before soliciting bids for the purchase and
             installation of video surveillance equipment.

             SMHA disagrees with this finding. SMHA’s procurement policy provides for a waiver in
Comment 5    the bid process. In this case, one bid was received. The total amount expended was not
             unreasonable, and the OIG’s own cost analysis determined the cost incurred was reasonable.
             SMHA considered waiving the requirement and accepting the one bid as a result of the
             accelerated time frame for obligating and expending ARRA funds.

             The Authority did not ensure that proper procurement procedures were followed in the
             purchase and installation of 119 furnaces.

             SMHA disagrees with this finding. Proper procurement procedures were followed pursuant
             to the Memorandum of Understanding between the Department of Energy and HUD:
             Coordinating Recovery Act Funds for Home Energy Retrofits. The MOU outlined their
             desire to revitalize the retrofit energy industry by facilitating the use of weatherization funds
             in public housing. They discussed offering pathways to resolution of issues that hinder the
Comment 6    realization of benefits of this program. In our opinion, SMHA becoming more involved and
             oversee the procurement policies of a third party vendor in the weatherization program is


             ______________________________________________________________________


                                                               Michael E. Williams, Executive Director
                         Board of Commissioners:               Frank L. Beane, Linda Bell, Daniel Fonte
                                                               Jeffrey S. McDaniels, Marilyn Frazier




                                                    19
Ref to OIG Evaluation                            Auditee Comments

             inconsistent with intent of the MOU. We have attached another copy of the MOU for your
             convenience, along with the MOU between SMHA and Stark County Community Action
             Agency (SCCAA), the SMHA Board resolution, and the letter from SCCAA’s Chief
             Executive Officer stating that their policies were followed.

             Finding 3:
             The Authority did not accurately report in Federalreporting.gov the number of jobs created
             and retained using Recovery Act Funds. The Authority could not provide documentation to
             show how it determined three of the number of jobs created.

             SMHA disagrees with this finding. SMHA did provide documentation in the form of
Comment 7    Section 3 paperwork supplied to SMHA by the subcontractor indicating 10 jobs were
             created. SMHA explained the Section 3 reporting requirements in detail at the pre-bid
             conferences and pre-construction conference, and SHMA relied upon the data contractors
             supplied. A copy of that form is attached.

             Please feel free to contact me for additional information or if there are any questions or
             concerns.

             Sincerely,




             Michael E. Williams
             Executive Director




             _____________________________________________________________________

                                                              Michael E. Williams, Executive Director
                          Board of Commissioners:             Frank L. Beane, Linda Bell, Daniel Fonte
                                                              Jeffrey S. McDaniels, Marilyn Frazier




                                                    20
                         OIG’s Evaluation of Auditee Comments

Comment 1   The Authority stated that it did complete an appropriate number of interviews.
            We agree that the number of initial interviews completed by the Authority was
            sufficient. However, according to HUD’s guidelines, Making Davis Bacon Work,
            public housing agencies are encouraged to focus interviews on projects or
            workers when violations are suspected or alleged. Further, they are also required
            to investigate probable violations and complaints alleging underpayments. Due to
            the responses received from the employees interviewed, the Authority should
            have interviewed all of the employees who worked under this contract to ensure
            that they received the appropriate Davis-Bacon wages.

Comment 2   The Authority’s actions should improve its Section 3 and Davis-Bacon
            compliance processes, if fully implemented. HUD will determine whether the
            improvements meet its requirements and that the policies are fully implemented.

Comment 3   The Authority stated that HUD-OIG assumed that employees were not paid fringe
            benefits. Our review was limited to the documentation maintained by the
            Authority in its project files. The Authority maintained interviews from
            employees stating that they were not paid fringe benefits, and certified payroll
            reports from its contractor stating that fringe benefits were paid. The Authority
            should have completed follow up interviews with the employees or obtained
            paystubs from the contractor to support its statements that fringe benefits were
            paid. U.S. Department of Labor regulations at 29 CFR 5.6(3) state that the
            Federal agency must cause such investigations to be made as may be necessary to
            ensure compliance with the labor standards. Such investigations should also
            include evidence of fringe benefit plans and payments. The Authority was unable
            to provide sufficient payroll documentation, such as paystubs, to support that the
            subcontractors’ employees were paid appropriate Davis-Bacon wages, including
            fringe benefits.

Comment 4   The Authority stated that it followed its capitalization policy when it replaced
            appliances with remaining useful life. The Authority stated that its capitalization
            policy states that appliances have a 5-year useful life. The Authority did not
            provide its capitalization policy for our review. According to HUD’s Public and
            Indian Housing Notice, PIH-2009-16, with proper preventative maintenance and
            routine repairs of minor components, refrigerators can be expected to perform
            from 6 to 10 years. The National Association of Home Builders estimates the life
            spans of electric ranges and refrigerators to be 14 to 17 years. Using HUD’s and
            the National Association of Home Builders’ estimates, we determined that a
            reasonable estimate for the life span of refrigerators and ranges was 8 years. The
            Authority purchased one range for $282, which replaced a range that was 2 years
            and 77 days old, and one refrigerator for $398, which replaced a refrigerator that
            was 3 years and 117 days old. As stated previously, the Authority’s purchasing
                                            21
            agent said that the two appliances were moved to the Authority’s maintenance
            shop to be kept as spare appliances. Therefore, the Authority did not follow
            HUD’s guidance regarding the useful life of its appliances.

Comment 5   The Authority stated that it considered obtaining a waiver from its procurement
            policies and accepting the one bid it received for the purchase and installation of
            video surveillance equipment. The Authority was unable to provide
            documentation that a cost estimate was completed before the purchase and
            installation of video surveillance equipment or documentation that it obtained a
            waiver from its requirements to complete a cost estimate. Completing a cost
            estimate before the purchase and installation of the equipment would have insured
            that the cost was reasonable. We agree that the cost of the purchase and
            installation of video surveillance equipment was reasonable. However, the
            Authority needs to perform cost estimates before it procures for goods and
            services.

Comment 6   The Authority stated it followed the proper procurement procedures pursuant to
            the memorandum of understanding between the Department of Energy and HUD.
            The Authority also stated that it believed that overseeing the procurement would
            be inconsistent with the intent of the memorandum of understanding. The
            Authority was unable to provide documentation to support that the Stark County
            Community Action Agency followed the proper procurement procedures pursuant
            to the American Recovery and Reinvestment Act. The Authority is still required
            to ensure the proper disbursement of Recovery Act funds whether it performs the
            procurement or has a third-party perform the procurement of goods or services.

Comment 7   The Authority stated that it explained the Section 3 reporting requirements in
            detail to its contractors and that it relied on the data the contractors provided. The
            Authority was unable to provide documentation to support the number of jobs it
            reported as created or retained in FederalReporting.gov. The documentation
            provided by the Authority showed that three of the ten jobs reported in
            FederalReporting.gov were not Section 3 eligible. Therefore, the Authority
            overstated the number of jobs created or retained by three jobs (10 jobs - 7 jobs).
             The Authority is still required to ensure that it appropriately reported the number
            of jobs created and retained in Federalreporting.gov whether it performed the
            calculation or had its contractors perform the calculation.




                                              22
Appendix C

           FEDERAL AND AUTHORITY’S REQUIREMENTS

Finding 1
The United States Housing Act of 1937, as amended, section 12(a), states that any contract for
loans, contributions, sale, or lease pursuant to this Act must contain a provision requiring that not
less than the wages prevailing in the locality, as determined or adopted (after a determination
under applicable State or local law) by the HUD Secretary, should be paid to all architects,
technical engineers, draftsmen, and technicians employed in the development and all
maintenance laborers and mechanics employed in the operation of the low-income housing
project involved and should also contain a provision that not less than the wages prevailing in the
locality, as predetermined by the Secretary of Labor pursuant to the Davis-Bacon Act, should be
paid to all laborers and mechanics employed in the development of the project involved
(including a project with nine or more units assisted under Section 8 of this Act when the public
housing agency or the HUD Secretary and the builder or sponsor enter into an agreement for
such use before construction or rehabilitation is commenced), and the HUD Secretary should
require certification as to compliance with the provisions of this section before making any
payment under such contract.

Requirements at 40 U.S.C. (United States Code) 3142 provide that prevailing wages are paid to
laborers and mechanics working on contracts in excess of $2,000 that specify the construction,
alteration, or repair, including painting and decoration, of public buildings.

Section 1606 of the Recovery Act states that all laborers and mechanics employed by contractors
and subcontractors on projects funded directly by or assisted in whole or in part by and through
the Federal Government pursuant to this Act must be paid wages at rates not less than those
prevailing on projects of a character similar in the locality as determined by the Secretary of
Labor in accordance with subchapter IV of chapter 31 of Title 40, United States Code.

U.S. Department of Labor regulations at 29 CFR 5.5(a) state that the agency head must cause or
require the contracting officer to insert in full in any contract in excess of $2,000, which is
entered into for the actual construction, alteration, or repair, including painting and decorating, of
a public building or public work or building or work financed in whole or in part from Federal
funds or in accordance with guarantees of a Federal agency or financed from funds obtained by
pledge of any contract of a Federal agency to make a loan, grant, or annual contribution and
which is subject to the labor standards provisions and the labor standards clauses.

U.S. Department of Labor regulations at 29 CFR 5.6(3) state that the Federal agency must cause
such investigations to be made as may be necessary to ensure compliance with the labor
standards clauses required by section 5.5. Investigations should be made of all contracts with
such frequency as may be necessary to ensure compliance. Such investigations should include
interviews with employees, which should be taken in confidence, and examinations of payroll

                                                 23
data and evidence of registration and certification with respect to apprenticeship and training
plans. In making such examinations, particular care should be taken to determine the correctness
of classifications and to determine whether there is a disproportionate employment of laborers
and of apprentices or trainees registered in approved programs. Such investigations should also
include evidence of fringe benefit plans and payments thereunder. Complaints of alleged
violations must be given priority.

HUD Handbook 7460.8, REV-2, paragraph 10.9(E)(2), states that the Authority is responsible
for conducting interviews with the laborers and mechanics on the jobsite to determine whether
the work performed and wages received are consistent with the job classifications and wage rates
contained in the applicable wage determination and the classifications and wages reported by the
employer on certified payrolls.

HUD’s Making Davis-Bacon Work guide for public housing agencies: Labor Standards
Enforcement, number 2, states that the contract administrator or a designee (such as an agency
construction inspector) must periodically conduct interviews with the construction workers on
the jobsite. Ten Steps to Streamlining Davis-Bacon, number 6, states that HUD is more
interested in using onsite interviews as a proactive enforcement tool than as a means to meet a
“representative sampling” quota. Rather than conducting interviews randomly for the sake of
assembling a sample, local contracting agencies are encouraged to focus interviews on projects
or groups of workers when violations are suspected or alleged. In this way, onsite interviews can
be used to support a specific ongoing investigation.

Finding 2
Regulations at 24 CFR 85.36(b)(9) state that grantees and subgrantees will maintain records
sufficient to detail the significant history of a procurement. These records will include but are
not necessarily limited to the following: rationale for the method of procurement, selection of
contract type, contractor selection or rejection, and the basis for the contract price.

Regulations at 24 CFR 85.36(c)(1) state that all procurement transactions will be conducted in a
manner providing full and open competition.

Regulations at 25 CFR 85.36(f)(1) state that grantees and subgrantees must perform a cost or
price analysis in connection with every procurement action including contract modifications.
The method and degree of analysis are dependent on the facts surrounding the particular
procurement situation, but as a starting point, grantees must make an independent cost analysis
before receiving bids or proposals. A cost analysis will be necessary when adequate price
competition is lacking and for sole-source procurements, including contract modifications or
change orders, unless price reasonableness can be established on the basis of a catalog or market
price of a commercial product sold in substantial quantities to the general public or based on
prices set by law or regulation. A price analysis will be used in all other instances to determine
the reasonableness of the proposed contract price.




                                                24
HUD Handbook 7460.8, REV-2, paragraph 3-2(D), states that the contracting officer should
prepare or have prepared an independent cost estimate commensurate with the purchase
requirement.

Finding 3
Section 1512(c) of the Recovery Act requires that not later than 10 days after the end of each
calendar quarter, each recipient that received Recovery Act funds from a Federal agency must
submit a report to that agency that contains a detailed list of all projects or activities for which
Recovery Act funds were expended or obligated, including (1) the name of the project or
activity, (2) a description of the project or activity, (3) an evaluation of the completion status of
the project or activity, and (4) an estimate of the number of jobs created and the number of jobs
retained by the project or activity.

OMB Memorandum M-10-08, part 2, section 5.1, number 2, requires that recipients of Recovery
Act funds submit estimates of jobs created and jobs retained for each project or activity in their
recipient reports. Part 2, section 5.2, number 10, states that this guidance does not establish
specific requirements for documentation or other written proof to support reported estimates on
jobs created or retained; however, recipients should be prepared to justify their estimates.
Recipients must use reasonable judgment in determining how best to estimate the job impact of
Recovery Act dollars, including the appropriate sources of information used to generate such
estimate. When such written evidence exists, it can be an important resource for validating the
job estimates reported.




                                                  25
